                                            Department of the Interior 
                                            Office of Inspector General 
                                                                        
                                                                        
                                                                        
                                                                        
                 AUDIT REPORT 


                                         
                             U.S. Fish and Wildlife Service 
                          Federal Assistance Program Grants 
                            Awarded to the Virgin Islands,  
                     Department of Planning and Natural Resources,  
                             Division of Fish and Wildlife,  
                                From October 1, 2003,  
                            Through September 30, 2005 
                  
 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0006­2007                    October 2007 
     
               United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                    Reston, Virginia 20191

                                                                                October 18, 2007

                                       AUDIT REPORT
Memorandum

To:           Director
              U.S. Fish and Wildlife Service

From:         Christina M. Bruner
              Director of External Audits

Subject:      Audit on U.S. Fish and Wildlife Service Federal Assistance Program Grants
              Awarded to the Virgin Islands, Department of Planning and Natural Resources,
              Division of Fish and Wildlife, From October 1, 2003, Through September 30,
              2005 (No. R-GR-FWS-0006-2007)

        This report presents the results of our audit of costs incurred by the Government of the
Virgin Islands, Department of Planning and Natural Resources (Department), Division of Fish
and Wildlife (Division), under grants awarded by the U.S. Fish and Wildlife Service (FWS).
FWS provided the grants to the Virgin Islands under the Federal Assistance Program for State
Wildlife Restoration and Sport Fish Restoration (Federal Assistance Program). The audit
included claims totaling $2,994,621 on 31 grants that were open during fiscal years (FYs) ended
September 30 of 2004 and 2005 (see Appendix 1). The audit also covered the Division’s
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

       We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $60,000 in costs for work that was charged to
the grants and not performed. In addition, we found that the Division:

           • used an indirect cost rate that did not ensure compliance with all federal
             regulations;

           • had inadequate controls over its real property; and

           • failed to follow reporting requirements for all of its Federal Assistance Program
             grants.
        Further, we found that the Division had not addressed some conditions that we discussed
in our prior audit report. These included inadequate controls over equipment and noncompliance
with the requirements to pass specific legislation.

        We provided a draft of the report to FWS and the Department for response on July 7,
2007. We agreed with FWS to issue the report in final with no responses if the Department did
not respond by September 30, 2007. Accordingly, the FWS issued a letter to the Department
dated September 14, 2007 giving the Department two weeks to respond to the draft. We did not
receive a response from the Department by the due date, so we are issuing the final report
without the grantee’s response.

        Please respond in writing to the findings and recommendations included in this report by
January 16, 2008. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. The
unimplemented recommendations from our prior audit report should be addressed separately,
through the audit resolution process, with Department of the Interior, Office of the Assistant
Secretary for Policy, Management and Budget.

      If you have any questions regarding this report, please contact the audit team leader,
Mr. Chris Krasowski, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service




                                                2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States 2 to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. For certain
government entities, including the Virgin Islands, the Acts allow for full reimbursement of
eligible costs incurred under the grants. The Acts also require that hunting and fishing license
revenues be used only for the administration of each State’s fish and game agency. Finally,
federal regulations and FWS guidance require States to account for any income they earn using
grant funds.

Objectives

Our audit objectives were to determine if the Division:

       •   claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts, related regulations, FWS guidelines, and the grant agreements;

       •   used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling $2,994,621 on the 31 grants that were open during
October 1, 2003, through September 30, 2005 (see Appendix 1). We report only on the
conditions that existed during this audit period. We performed our audit at the Division
headquarters in St. Thomas and visited the Frederiksted Pier in St. Croix and the Red Hook
facility in St. Thomas. We performed this audit to supplement, not replace, the audits required
by the Single Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.



1
    As amended 16 U.S.C. §§ 669 and 777, respectively.
2
 The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico, the
Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.


                                                         3
Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures the Division charged to the
       grants;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       and program income;

   •   interviewing Division employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

To the extent possible, we relied on the relevant work of the certified public accounting firm that
performed the Single Audit for FY2004, which helped us to avoid duplication of audit effort.

We identified the internal controls over transactions recorded in the labor and accounting
systems and tested their operation and reliability. Based on the results of initial assessments, we
assigned a level of risk to these systems and selected a judgmental sample of transactions
recorded in them for testing. We did not project the results of the tests to the total population of
recorded transactions or evaluate the economy, efficiency, or effectiveness of Division
operations.

Prior Audit Coverage
On October 7, 2002, we issued our “Final Advisory Report on Costs Claimed by the U.S. Virgin
Islands, Department of Planning and Natural Resources, Division of Fish and Wildlife, Under
Federal Aid Grants from the U.S. Fish and Wildlife Service from October 1, 1996 through
September 30, 1998 (No. 2003-E-0001).” We followed up on all recommendations in the report.
Three of the recommendations (A.1, A.2, and B.3) were resolved and implemented. We discuss
the status of the remaining seven recommendations, which are resolved but unimplemented, in
the 2002 Audit Findings and Recommendations section of this report.



                                                 4
Finally, we reviewed the Single Audit report for the Government of the Virgin Islands for
FY2004. The FWS grants were not considered a major program. The Single Audit report for
FY2005, had not been issued before we completed our fieldwork.




                                             5
                                     Results of Audit

Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance and that the Division earned no
program income or license revenue. However, we identified several conditions that resulted in
the findings listed below, including questioned costs totaling $60,000. We discuss the findings
in more detail in the Findings and Recommendations section.

       Unallowable Payment. The Division made an advance payment of $60,000 to a
       contractor who provided no services. The Division has been unable to find the contractor
       and anticipates that no work will be performed.

       Noncompliant Indirect Cost Rate. The Division computed indirect costs it charged to
       the grants using a rate that could have led to excess reimbursement for central services
       costs.

       Inadequate Real Property Controls. The Division did not maintain an inventory of real
       property constructed using Federal Assistance Program funds.

       Noncompliant With Reporting Requirements. The Division failed to submit to FWS
       the financial status reports and performance reports on several of its grants.

Findings and Recommendations

A.     Unallowable Payment — $60,000

       Under grant FW-18-2, the Division paid $60,000 in advance to a contractor who failed to
       provide services. The payment was for dredging operations at the Division’s Red Hook
       facility (pier). Division personnel informed us that they have been unable to locate the
       contractor and that it is unlikely any of the work will be performed.

       To be allowable, costs must meet basic Code of Federal Regulations (C.F.R.) guidelines.
       Specifically, 2 C.F.R. § 225, Appendix A, General Principles for Determining Allowable
       Costs, allows grantees to charge only certain costs. Such costs must be necessary and
       reasonable for the efficient performance and administration of the federal award. In
       addition, 50 C.F.R. § 80.16 allows a grantor to reimburse grantees for the federal share of
       allowable costs incurred by the State (Territory) in accomplishing approved projects.

       Since the contractor completed no work, the $60,000 payment is unreasonable and
       unallowable under 2 C.F.R. § 225, Appendix A and 50 C.F.R. § 80.16. As a result, we
       questioned the $60,000 payment. Division personnel were unaware that an advance
       payment is unreasonable and that they should pay based only on services performed.


                                                6
        Recommendation

        We recommend that FWS work with the Division to resolve the $60,000 in questioned
        costs.

B.      Noncompliant Indirect Cost Rate

        The Acts limit indirect costs that a State can charge to Federal Assistance Program grants
        for State-provided central services, and 50 C.F.R. § 80.15(e) codifies the limitation. The
        Division did not take steps to limit such costs.

        Central services costs are one type of indirect cost, which means a State allocates them
        across multiple grants and programs. Title 2 C.F.R. § 225, Appendix E, Section C.4(b)
        and Section E.1 require each State to use a rate approved by an independent agency when
        it charges indirect costs to grants. The limit imposed by 50 C.F.R. § 80.15(d) is 3 percent
        of a State’s annual apportionment in any 1 fiscal year. 3

        Under this regulation, the costs for central services must follow an approved cost
        allocation plan. A State cannot simply adjust its approved rate to comply with the 3
        percent limitation. Rather, under both 50 C.F.R. and 2 C.F.R. § 225, a State must use a
        special restricted rate to charge central services costs to the grants if using the approved
        rate would cause the State to exceed the 3 percent limitation. A restricted rate helps to
        ensure a State does not overcharge the grants for central services.

        Further, FWS issued guidance on September 6, 2005, to ensure consistent compliance
        among the States with the requirements of 50 C.F.R. § 80.15(d) and 2 C.F.R. § 225 (then
        OMB Circular A-87). Under this guidance, if the State does not have a restricted rate, it
        must establish procedures and document steps to ensure compliance with the 3 percent
        limitation.

        The Division did not 1) apply for a restricted indirect cost rate or 2) establish policies or
        procedures to limit reimbursement for central services indirect costs as required. Rather,
        the Division applied a 3 percent rate to allocate central service costs charged to Federal
        Assistance Program grants.

        While FWS determines the grant apportionment annually, the Division applied the
        indirect cost rate to grants that spanned several fiscal years. As a result, we were unable
        to determine whether the Division actually exceeded the 3 percent limitation in any 1
        fiscal year, but it could have.

        Recommendations

        We recommend that FWS require the Division to:


3
 The annual apportionment refers to the total funding a State receives from FWS under Federal Assistance Program
grants.

                                                       7
     1.     develop controls to ensure Division personnel follow the September 6, 2005 FWS
            guidance memorandum;

     2.     determine whether the 3 percent limit was exceeded for FYs 2004 and 2005; and

     3.     resolve any questioned costs — if the Division received excess reimbursement.

C.   Inadequate Real Property Controls

     The Division used Federal Assistance Program funds to build boat ramps and fishing
     piers, but did not maintain a real property inventory list of them. Lack of such an
     inventory could result in misuse of the property or loss of its control.

     According to 50 C.F.R. § 80.19 and 80.20 and 43 C.F.R. § 12.71, real property that is
     acquired or constructed with federal funds must be properly controlled and used for its
     intended purposes. In addition, Title 31, Chapter 21, Sections 201(a) and (b) of the
     Virgin Islands Code 1) require the Commissioner of Property and Procurement to manage
     and control Government property and 2) grant the Commissioner authority over property
     disposition and use. Such authority and responsibility include inventorying Government
     property and establishing forms and procedures that cover its sale, rental, and disposition.

     Recommendations

     We recommend that FWS require the Division to:

     1.     maintain a list of real property constructed with federal funds and

     2.     ensure that real property acquired and constructed with Federal Assistance
            Program funds is properly controlled and used for its intended purposes.

D.   Noncompliant Reporting

     The Division did not submit to FWS the required annual financial status reports (SF-
     269s) for grants FW-18-1 or FW-18-2 or the required performance reports for grants FW-
     18-2 or W-14-3. As a result, the Division did not comply with the grant agreement and
     other applicable rules, regulations, policies, and guidance.

     Under 43 C.F.R. §§ 12.951 and 12.952, Monitoring and reporting program performance
     and Financial reporting, respectively, a recipient of a federal award must submit final
     program performance and financial reports no later than 90 calendar days after the grant
     period ends. In addition, FWS Handbook 522 FW 1.23, Financial Reporting, requires
     each State to submit its SF-269 no later than 90 days after the grant agreement period
     ends. If the State cannot provide the report within this period, it must request an
     extension from the regional director.

     The Division’s noncompliance limited FWS ability to monitor the grants.


                                              8
 Recommendations

       We recommend that FWS:

       1.       require the Division to submit the delinquent reports; and

       2.       work with the Division to develop controls to ensure that it a) submits financial
                status reports and performance reports within the required reporting timeframes,
                or b) requests a written extension prior to the original reporting deadline.

2002 Audit Findings and Recommendations
FWS reported in its Corrective Action Plan that actions to address our 2002 audit
recommendations were to be taken by March 1, 2006, and three of our recommendations were
resolved and implemented.

We list below the recommendations that the Department of the Interior, Office of the Assistant
Secretary for Policy, Management and Budget (PMB) considers resolved but not implemented.
The corrective actions for these recommendations have either not been taken or not been
documented. We address below each open recommendation based on the information we
obtained during our current audit that pertains to the open recommendations.

   •   Recommendations A.3.1, A.3.2, and A.4. We questioned:

       o $14,435 in costs charged to grants for retroactive pay raises, a portion of which fell
         outside of the grant period (A.3.1);

       o $3,266 in out-of-period payments (A.3.2); and

       o $708 in costs for travel that was charged twice (A.4).

       Status

       PMB has received no supporting documentation that addresses the questioned costs for
       recommendations A.3.1, A.3.2, and A.4.

   •   Recommendations B.1 and B.2. We recommended that the Division:

       o reconcile records from its subsidiary accounting system with Department of Finance
         records (B.1.) and

       o stop posting purchase orders as expenses in the subsidiary system and start posting
         them in the system to an intermediate account such as accounts payable or
         obligations. We made this recommendation because purchase orders contain
         estimated rather than actual costs.



                                                 9
    Status

    We found that the Division is currently implementing a new financial management
    system to address our 2002 recommendations B.1 and B.2, although PMB has received
    no related documentation.

•   Recommendation C. We recommended that the Division implement a property
    management system that adequately controls equipment purchased with Federal
    Assistance Program funds.

    Status

    Federal regulations (43 C.F.R. § 12.72(d)) contain the minimum requirements for
    maintaining controls over property. These include, among other items, an identification
    number, percentage of Federal Assistance Program funds used to purchase the
    equipment, and location. We reported previously that the Division’s field offices did not
    adequately tag their equipment, identify in their written inventories the equipment
    purchased with Federal Assistance Program funds, or conduct physical inventories.

    We found the same conditions at the Division during the audit period covered in this
    report. Therefore, our prior recommendation that FWS require the Division to maintain
    adequate controls over equipment purchased with Federal Assistance Program funds
    remains unimplemented.

•   Recommendation D. We recommended that FWS require the Division to enact
    legislation that assents to the provisions of the Dingell Johnson Sport Fish Restoration
    Act, as required.

    Status

    According to 50 C.F.R. § 80.3, a State must pass legislation assenting to the Act before it
    can benefit from the Federal Assistance Program. The Virgin Islands has not passed
    legislation assenting to this Act. Therefore, our prior recommendation that FWS require
    the Division to enact the required legislation remains unimplemented.




                                            10
                                                       Appendix 1


                  VIRGIN ISLANDS
  DEPARTMENT OF PLANNING AND NATURAL RESOURCES
     FINANCIAL SUMMARY OF REVIEW COVERAGE
    OCTOBER 1, 2003 THROUGH SEPTEMBER 30, 2005

                                       Questioned Costs
                                        (Federal Share)
   Grant     Grant       Claimed       Cost
  Number    Amount        Costs      Exceptions    Total
F-07-19       $84,782      $52,404
F-07-20        98,543       70,428
F-08-13        44,211       30,500
F-08-14        27,659       19,256
F-09-09       558,000      557,108
F-09-11       106,277       37,439
F-09-12        76,633       32,611
F-10-13       141,189       89,451
F-10-14       105,476      104,275
F-14-4         97,307       77,015
F-14-5        119,994       97,418
FW-14-12      256,168      247,999
FW-14-13      260,534      230,708
FW-15-12      130,297      106,985
FW-15-13      150,648      126,414
FW-16-3        85,307       47,399
FW-16-4        72,632       72,231
FW-17-2        20,487        4,515
FW-18-1       383,642      306,934
FW-18-2       472,864      313,331       60,000    60,000
W-11-7        104,160       84,232
W-12-7         42,902       31,729
W-12-8         26,638       16,111
W-15-3         15,155        8,572
W-15-4         19,505       14,157
W-16-3         37,918       22,221
W-16-4         23,019       10,741
W-17-2         64,389       53,608
W-17-3         50,713       40,973
W-18-1         50,630       48,869
W-18-2         55,371       38,987
Total      $3,783,050   $2,994,621      $60,000   $60,000


                        11
                                                                             Appendix 2

                                 VIRGIN ISLANDS
               DEPARTMENT OF PLANNING AND NATURAL RESOURCES
                STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS



     Recommendations       Status                        Actions Required

A, B.1, B.2, B.3, C.1,   Unresolved        FWS should provide a response to the
C.2, D.1, and D.2                          recommendations indicating concurrence or
                                           nonconcurrence. If the FWS concurs, provide
                                           a plan that identifies the actions taken or
                                           planned to implement the recommendations,
                                           targeted completion date(s), the title of
                                           official(s) responsible for implementation, and
                                           verification that FWS officials reviewed and
                                           approved of actions taken or planned by the
                                           Department. If FWS does not concur, provide
                                           the reasons for the nonconcurrence. We will
                                           refer recommendations not resolved and/or
                                           implemented at the end of 90 days (January 16,
                                           2008) to the Assistant Secretary for Policy,
                                           Management and Budget for resolution and/or
                                           tracking of implementation.




  




                                      12
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
